                                                       U.S. Department of Justice

                                                       United States Attorney

                                                       Eastern District of Pennsylvania

                                                       615 Chestnut Street
                                                       Suite 1250
                                                       Philadelphia, Pennsylvania 19106-4476
                                                       (215) 861-8200



                                                       March 3, 2011

HEALTH CARE FACILITY OPERATOR CHARGED WITH HEALTH CARE FRAUD,
          MAIL FRAUD AND AGGRAVATED IDENTITY THEFT

        PHILADELPHIA - John Edward McKoy, a former owner and operator of multiple health
care facilities in the Eastern District of Pennsylvania including Mt. Pleasant Medical
Management, Inc. and Harris Medical Management, Inc., was charged today by Indictment1 in
connection with a scheme to defraud United Health Care Corporation (“UHCC”) of more than
$321,000, announced United States Attorney Zane David Memeger. UHCC was a medical
management service that processed and paid medical claims for the National Railroad Passenger
Corporation, (commonly known as AMTRAK), through its health care benefits program called
AmPlan.

       Between November 2004 to on or about October 8, 2007, it is alleged that John Edward
McKoy caused hundreds of false claims to be submitted to UHCC for services purportedly
rendered to patients when McKoy knew that no such services were provided and no licensed
medical professional provided such services. In total, it is alleged that the defendant caused the
submission of fraudulent medical bills to UHCC totaling more than $321,000, resulting in
payments from the victim insurer totaling approximately $291,255.13.

                       INFORMATION REGARDING THE DEFENDANT
             NAME                            ADDRESS                      AGE OR YEAR OF BIRTH
     John Edward McKoy                     Norristown, PA                             61 years old

       If convicted, McKoy faces a substantial term of imprisonment, including a two year
mandatory minimum, a fine of $10,750,000, three years supervised release, a special assessment
of $4,300, forfeiture of $291,255.13, and mandatory restitution to United Health Care
Corporation.

       The case was investigated by AMTRAK Office of the Inspector General, the Department
of Labor Office of the Inspector General, the Department of Labor Employee Benefits Security


       1
        An Indictment or Information is an accusation. A defendant is presumed innocent unless and until
proven guilty.

                                                   1
Page 2

Administration, the United States Postal Inspection Service, and the Federal Bureau of
Investigation. It is being prosecuted by Assistant United States Attorney Jeffery W. Whitt.




 UNITED STATES ATTORNEY'S OFFICE                    Contact: PATTY HARTMAN
 EASTERN DISTRICT, PENNSYLVANIA                              Media Contact
 Suite 1250, 615 Chestnut Street                             215-861-8525
 Philadelphia, PA 19106

COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT
               HTTP://www.justice.gov/usao/pae




                                                2
